The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Irving A. Williamson, Chairman
                                        Shara L. Aranoff
                                        Dean A. Pinkert
                                        David S. Johanson
                                        Meredith M. Broadbent
                                        F. Scott Kieff
         UNITED STATES INTERNATIONAL TRADE COMMISSION

                                     WASHINGTON, DC 20436


November 15, 2013                                                    OIG-LL-018


Chairman Williamson:

This memorandum transmits the Inspector General’s summary of the top management and
performance challenges facing the Commission and briefly assesses management’s progress in
addressing these challenges.

I have identified two management and performance challenges for fiscal year 2014; Internal
Controls and Using Information Technology to Improve Staff Productivity. These challenges
were identified based on work by the Office of Inspector General, input from Commission
management, and knowledge of the Commission’s programs and operations.

Internal Controls:

The Commission’s management is responsible for establishing and maintaining a system of
internal controls. These internal controls are the plans, policies, procedures, and organizational
environment that managers use to ensure their programs and operations are achieving the
intended results through the effective use of public resources.

Documented and consistent policies and procedures are necessary to provide a reasonable level
of assurance that offices are operating in an efficient and effective manner. However, the
policies and procedures are only effective if they are functioning as intended, monitored, and
updated. Based on the results of audits, evaluations, and other reviews, we continue to find
policies and procedures that are outdated, inefficient, and ineffective.

The Commission has had a long-standing culture of undocumented and informal processes to
complete daily tasks. The Commission has taken steps to address this weakness by establishing
a business process mapping team to document the flow of existing business processes. The
process maps will allow the Commission an opportunity to perform an analysis of its processes
to look for areas for improvement by identifying redundant and ineffective processes,
performance gaps, or areas of risk. It also provides the Commission with a baseline illustrative
process that can be used to begin establishing and documenting formal procedures. While this is
a step in the right direction, many challenges remain in the areas of on-going monitoring for
effectiveness and continual process improvement to gain efficiencies.

The Commission also faces similar challenges in the area of risk assessment. Documented
procedures to identify, validate, assess, mitigate, monitor, and report on organizational risk are
necessary to provide a reasonable level of assurance that the Commission is managing risk at
acceptable levels.

Performing risk assessments is a fundamental element within a system of internal controls that
has not been a structured part of the Commission’s management activities. The Commission
does not have risk assessment guidelines or procedures. Instead, management has been self-
reporting risks and their potential impacts on an ad hoc basis without a reliable framework in
place to assess and validate the information presented. The Commission has recently taken steps
to begin developing a risk assessment framework, but many challenges remain in educating
management on risk identification, prioritization, management, and reporting.

The Commission has recognized the importance of having strong internal controls throughout the
agency. This is evidenced by the Commission’s acknowledgement of the risks identified in our
reports and the management decisions they have made to address our recommendations.
Additionally, an Internal Control Program Manager was hired within the Office of the Chief
Financial Officer. The Internal Control Program Manager has been working one-on-one with
office directors and designated representatives to promote awareness of internal controls and
develop an effective program. The success of this program is heavily reliant upon senior staff
remaining engaged and actively managing the system of internal controls within their area of
responsibility to ensure they are operating effectively.

The most significant challenge will be to manage the cultural changes associated with
implementing new systems of internal control throughout the Commission. This will require
first line supervisors to check, inspect, or review the work of subordinates to make sure the new
procedures are being followed. It will also require all executives to understand and manage the
internal and external risks associated with the Commission and the programs they direct.

The Commission has been committed to improving and strengthening the internal control
environment. At the same time, the Commission understands that the effort must engage leaders
broadly, ensure buy-in across programmatic and administrative offices and be sustained over a
long period of time in order to achieve a mature and effective internal control program. The
Commission will be challenged to manage and drive the cultural changes associated with the
development and implementation of an effective organizational internal control program.

Using Information Technology to Improve Staff Productivity:

Information Technology should be an enabler for the USITC knowledge workers to operate more
effectively and efficiently. For this to happen means there are two foundational requirements: 1)
a stable, productive information technology platform and 2) an environment receptive to change
and automation.

                                               2 of 3
In our annual Inspector General Cyberscope Fiscal Year 2012 submission to the Office of
Management and Budget (through the Chairman), we identified deficiencies in 7 of 11
information technology program areas evaluated. Reliability and performance of the network are
directly impacted by three of those areas: Continuous Monitoring, Configuration Management,
and Incident Response and Reporting. Continuous Monitoring, when implemented, will enable
real-time identification of issues and expedite their resolution, improving the performance of the
network as a whole. A mature, successful computing platform requires an understanding and
management of the configuration of systems on the network. If the configuration is understood
and consistent, it minimizes errors and enables more consistent performance. If incidents are
properly identified, analyzed, and reported, then the Commission will gain the knowledge
needed to understand the source of incidents and enable it to make educated decisions on
strategies to reduce these incidents and mitigate the risk they pose.

Information technology should be seen as a supporting, fundamental resource, and not as an
entity unto itself. Until this concept is embraced, Commission staff will continue to be frustrated
and look for ways to be productive despite the technology of the Commission. If the Commission
can improve the flexibility, reliability, and performance of its technology, Commission staff will
use it to transform the way they work, resulting in a better, more efficient work product.

The Commission faces many challenges implementing information technology solutions to
improve staff productivity. To improve productivity, the Commission should prioritize the
appropriate skills and resources in the right areas to ensure that both basic and enhanced services
work well and contribute to a stable, consistent environment to effectively serve its staff
regardless of their location, or the situation at the primary data center.

Progress in both of these areas is being made as demonstrated in the quarterly performance
review meetings. These meetings grapple with questions of: how to measure performance, how
much control is too much, is there a better or cheaper way, can we automate this? These
questions challenge the culture of “it’s always been done this way” a culture that can only be
overcome by your support and emphasis on improving the efficiency and effectiveness of the
Commission programs and operations.

I will continue to work with you, the other Commissioners, and management to reassess our
goals and objectives to ensure that my focus remains on the risks and priorities of the
Commission.




Philip M. Heneghan
Inspector General




                                              3 of 3
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers quickly. The instrument
was used by architects, engineers, and actuaries as a measuring device.
